TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    A Formal Program to Identify Artwork
                  Donations Reported on Tax Returns Is Not
                   Necessary, but Examination Procedures
                          Need to Be Strengthened



                                         August 22, 2006

                              Reference Number: 2006-30-120




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
